    GENERAL SERVICES ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL’S
          INDEPENDENT REPORT
 ON APPLYING AGREED-UPON PROCEDURES
TO THE OFFICE OF PERSONNEL MANAGEMENT
     REPORT NUMBER A100086/S/F/S10001
            SEPTEMBER 30, 2010
               U.S. GENERAL SERVICES ADMI                     ISTRATION
              Office of In. pe tor Gt:'neral



SEP 3 0 2010
Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
1900 E Street, NW, Room 6400
Washington, DC 20415


Dear Mr. McFarland:

In accordance with the requirements of the Office of Management and Budget M-09-33,
Technical Amendments to Bulletin No. 07-04, "Audit Requirements for Federal Financial
Statements," I am transmitting the results of our agreed-upon procedures engagement. This
engagement was performed to assist the U.S. Office of Personnel Management in assessing the
reasonableness of retirement, health benefits, and life insurance withholdings and contributions,
and employee headcount data which the General Services Administration's National Payroll
Branch submitted to the U.S. Office of Personnel Management during fiscal year 2010.

I would be pleased to discuss this report with you at any time. If your staff has any questions
concerning this report, please contact Mr. Jeffrey Womack, Deputy Assistant Inspector General
for Finance and Administrative Audits on (202) 501-0006.

Sincerely,




Brian D. Miller
Inspector General

Enclosure

cc:    Mr. Mark Reger, Chief Financial Officer




                                         ,.Iln~ 1'",~,.lIl1
                            f,·d",.1 K,...                    0
                          1800 F Strel't, NW, Washington, DC 204-0_ -0002
                                                                   "nnl,,1 '/ K,..-,d, 1I'"f'<"
                               General Services Administration
                      Office of Inspector General's Independent Report
                            on Applying Agreed-Upon Procedures
                           to the Office of Personnel Management

SEP 3 0 2010
To the Inspector General
U.S. Office of Personnel Management

We have performed the procedures enumerated below, which were agreed to by the Inspector
General and Chief Financial Officer of the U.S. Office of Personnel Management (OPM), solely
to assist you in connection with the employee withholdings and employer contributions reported
in the "Report of Withholdings and Contributions for Health Benefits, Life Insurance, and
Retirement" for the payroll periods ended August 29, 2009; February 27, 2010; and May 22,
2010. The procedures were also applied to withholdings and contributions reported in the
Semiannual Headcount Report as of August 29,2009, and February 27, 2010. This agreed-upon
procedures (AUPs) engagement was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of the
procedures is solely the responsibility of the Inspector General and the Chief Financial Officer of
OPM. Consequently, we make no representation regarding the sufficiency of the procedures
described below either for the purpose for which this report has been requested or for any other
purpose.

The procedures and the associated findings are as follows:

1. We compared the payroll system data files to the "Report of Withholdings and Contributions
   for Health Benefits, Life Insurance and Retirement" (Standard Form 2812), for the
   Retirement and Insurance Transfer System (RITS) submission data for the payroll periods
   ended August 29,2009; February 27, 2010; and May 22, 2010. To accomplish this, we:

      •   Compared and verified the mathematical accuracy of the Consolidated Payroll Reports
          and the Earnings to Net Report.

      •   Compared and verified the data from the Earnings to Net Feeder Report for each
          agency that GSA provides payroll services, to the Grand Earnings to Net Report.

      •   Verified the mathematical accuracy of each of the Standard Form 2812s sampled and
          traced the totals back to Grand Earnings to Net Report.

   No exceptions were found as a result of applying the procedure.

2. We randomly selected a sample of25 GSA employees and 25 OPM employees for the payroll
   period ended May 22, 2010 who were:

      •   Covered by the Civil Service Retirement System (CSRS) or the Federal Employees
          Retirement System (FERS);
      Enrolled in the Federal Employees Health Benefits Program;

      Covered by Basic Life Insurance; and

      Covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional
       coverage (Option A, B, or C).

Using the official personnel files of the employees in our sample, we:

      Verified the base salary shown in the payroll data to approved amounts reflected on
       the employees’ Notification of Personnel Action (Standard Form 50).

      Verified the retirement plan codes indicated on the employees’ Standard Form 50 to
       the plan codes reported in the payroll system and that the retirement withholdings and
       contributions for participants in the FERS and CSRS retirement plans were the
       official amounts required by law.

      Tested to determine if the health benefit codes indicated on the employees’ “Health
       Benefits Registration Form" (Standard Form 2809) agreed with the plan codes
       reported in the payroll system. We also verified that the employee withholdings and
       agency contributions agreed with the official subscription rates issued by OPM for the
       plan and option elected by each employee selected.

      Tested to determine if the basic and optional life insurance coverage indicated on the
       employees’ Life Insurance Election Form (Standard Form 2817) agreed with the life
       insurance coverage reported in the payroll system, and that the life insurance
       withholdings and contributions agreed with the official life insurance rates issued in
       OPM’s FEGLI Program Booklet.

As a result of applying the procedure, we noted one exception:

During our test of OPM employees with benefits (retirement, health, and life insurance), we
noted that controls to monitor and capture appropriate employee deductions and employer
contributions for FEGLI benefits did not exist. Specifically, of 25 employees’ files selected
for testing, we identified an instance where a part-time employee electing FEGLI did not
have any deductions or employer contributions for the pay period tested. At the time of our
test work, a debt had not yet been established for the employee. We further determined that
the National Payroll Branch (NPB) did not have a system in place to capture and track
employees that fall into this category.

The Financial and Payroll Services Division, National Payroll Branch concurs with our audit
finding and has taken action to resolve the issue. Specifically, the NPB has submitted a
System Change Request (SCR) to have the Payroll Accounting and Reporting (PAR) system
establish a debt and debt type for any employee whose pay is not sufficient to cover FEGLI
premiums, and to generate the corresponding government share. In the interim, until PAR is
programmed to automatically do so, NPB has also implemented manual processes to identify
and track employees whose pay is insufficient to cover their premiums. Lastly, the NPB is
                                           2
   currently identifying employees who may have been affected by this issue from 2001 to
   2010, and for those cases, will pursue collection of the unpaid FEGLI premiums.

3. For the payroll period ended May 22, 2010, we randomly selected a sample of 10 GSA
   employees and 10 OPM employees who did not have health benefit withholdings. We
   compared the information in the payroll system data files to corresponding information in the
   individual employee’s official personnel files and verified that the employees elected to be
   excluded from health benefit coverage.

   No exceptions were found as a result of applying the procedure.

4. For the payroll period ended May 22, 2010, from the universe of GSA and OPM employees
   we randomly selected a sample of 10 GSA employees and 10 OPM employees who did not
   have life insurance withholdings. We compared the information in the payroll system data
   files to corresponding information in the individual employee’s official personnel files and
   verified that the employees elected to be excluded from life insurance coverage.

   No exceptions were found as a result of applying the procedure.

5. We performed analytical procedures to compare the total number of employees listed in
   GSA’s Payroll Accounting and Reporting System to the total number of employees reported
   to OPM in the Supplemental Semiannual Headcount Reports for the payroll periods ended
   August 29, 2009 and February 27, 2010.

   As a result of applying the procedure, we noted one exception:

   During our review and recalculation of the March 2010 Headcount Report for the DC Courts,
   a customer agency of the NPB, we discovered that the enrollment number for Option B life
   insurance, age bracket 45-49, was overstated by 653 employees. Specifically, for the pay
   period ending February 27, 2010, we noted a 10.29 percent variance in the headcount
   reported by the NPB to OPM, in comparison to that which was reported on the SF-2812
   Feeder Report (RITS Submission) for the same period.

   The Financial and Payroll Services Division, National Payroll Branch concurs with our audit
   finding, and has since corrected and resubmitted the report to OPM. NPB has also developed
   a new supervisory review and approval process, which will be implemented during the next
   Semi-Annual Supplemental Headcount Reporting period in September 2010.

6. We identified the total number of GSA and OPM employees enrolled in each retirement plan
   (CSRS and FERS); each health benefits plan option and each life insurance option for the
   payroll periods ending August 29, 2009, February 27, 2010, and May 22, 2010. Using the
   payroll base subject to each of the contributions, we:


          Calculated the total retirement employee withholdings and employer contributions by
           multiplying the CSRS and FERS payroll base by the withholding and contribution
           rates required by law for both GSA and OPM. We then compared the calculated total
           with the corresponding amounts shown on the RITS supporting documentation. We
                                               3
           found no differences in excess of the five percent tolerance threshold established in
           the AUPs.

       •   Calculated the health benefit employee withholdings and employer contributions by
           multiplying the number of employees enrolled in each health benefit plan option by
           the employee and employer premiums for that plan option, for both GSA and OPM.
           We compared the calculated total with the health benefit withholding and
           contribution amounts shown on the RlTS supporting documentation. We found no
           differences in excess of the five percent tolerance threshold established in the AUPs.

       •   Calculated the basic life insurance employee withholdings and employer
           contributions by using the formula described in Step 6.c of OMB Bulletin No. 07-04,
           Section 11, for both GSA and OPM. We compared the results to the employee
           withholdings and employer contributions for basic life insurance coverage reported
           on the RlTS supporting documentation. We found no differences in excess of the
           five percent tolerance threshold established in the AUPs.

       •   Calculated the Option A, Option B, and Option C life insurance employee
           withholdings by using the formulas described in Step 6.d of OMB Bulletin No. 07-04,
           Section 11, for both GSA and OPM. We compared the results to the employee
           withholdings for Option A, Option B, and Option C life insurance coverage reported
           on the RITS supporting documentation. We found no differences in excess of the 2
           percent tolerance threshold established in the AUPs.

   No exceptions were found as a result of applying the procedure.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirement, and the headcount reports prepared by GSA's National Payroll Branch.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General and Chief
Financial Officer of OPM and is not intended to be, and should not be, used by anyone other than
these specified parties.




~t-9:tl
Theodore R. Stehney
Assistant Inspector General for Auditing




                                                4
